COURT 0

'EflL - SECOND DIST.

filed
Oct 25, 2019
DANIEL P. POTTER, Clerk

jzelava

Deputy Clerk

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115._____________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION ONE
IVAN RENE MOORE,
Plaintiff and Appellant,

‘ B272445
(Los Angeles County
Super. Ct. No. BC464111)

v.

KIMBERLY MARTIN-BRAGG,
Defendant and
Respondent.
RONALD HILLS et al.,
Plaintiffs and Appellants,
v.

KIMBERLY MARTIN-BRAGG
et al.,
Defendants and
Respondents.

B272445
(Los Angeles County
Super. Ct. No. BC475551)

APPEAL from a judgment of the Superior Court of Los
Angeles County, Michelle R. Rosenblatt and Michael M. Johnson
Judges. Affirmed.
Ivan Rene Moore, in pro. per.; for Plaintiff and Appellant
Ivan Rene Moore.
Ronald Hills, in pro. per., for Plaintiff and Appellant
Ronald Hills.
Glaser Weil Fink Howard Avchen & Shapiro and Felton T.
Newell for Defendant and Respondent Kimberly Martin-Bragg.
Ronald Hills and vexatious litigant Ivan Rene Moore
appeal from a trial court judgment dismissing all of their causes
of action against Kimberly Martin-Bragg and awarding Bragg
declaratory and injunctive relief related to the parties dispute
over real property located at 6150 Shenandoah Avenue in Los
Angeles.1 Moore also appeals from the trial court’s order
declaring him to be a vexatious litigant. Finding no error, we
affirm.

1 Moore and Hills also purport to appeal from a judgment in
Los Angeles County Superior Court No. BC480013 (consolidated
in the superior court with BC483652). Neither the notice of
appeal nor the record contains a judgment entered in that case,
nor is it apparent from the record that a notice of appeal was filed
in that matter in connection with this appeal. On September 8,
2017, while this appeal was pending, Division Five released an
opinion after Bragg’s notice of appeal from the judgment in that
matter. (Moore v. Martin-Bragg (Sept. 8, 2017, B276366)
[nonpub. opn.j.) Based on the inadequacy of the recoid heie and
Division Five’s opinion, we have not considered any argument
related to Los Angeles Superior Court Nos. BC480013 or
BC483652.

2

background
Because the record in this case is deficient, the background
is necessarily drawn entirely from the trial court s statement of
decision issued after a six-day bench trial.2
“This action concerns conflicting claims for the title to real
property located at 6150 Shenandoah Avenue in Los Angeles
(‘6150 Shenandoah’). The property consists of a single family
residence located in the Ladera Heights area of the city.

2 In Martin-Bragg v, Moore (2013) 219 Cal.App.4th 367, 370
(Moore I), we referred to the record as fragmentary and
disorganized.” The record here is equally fragmentary and
disorganized. It is also “both technically and substantively
deficient ” (Modaraei v. Action Property Management, Inc. (Sept.
30, 2019,’ B290247)___Cal.App.5th _, [p. 2].) For example,
Moore asks us to conclude that the trial court erred by denying a
motion to enforce Judge Rosenblatt s order that his personal
property be returned. The record, however, contains no such
motion or any supporting or opposing papers, and no indication
other than a vague reference in a single trial court order that any
such motion was ever made. Likewise, Moore asks us to conclude
that the trial court erred in denying his motions in limine. The
record contains the motions, but no oppositions or replies. Moore
asks us to review the trial court’s order declaring him to be a
vexatious litigant. But the record does not contain any briefing
or documentation regarding that order and contains only the
order denying Moore’s motion to rescind the order he seeks to
have us reverse The record contains multiple identical copies of
other documents, adding to the appendices volume, but not to
their utility.
Rather than providing us with a record that would allow us
to meaningfully review their contentions, Moore and Hill have
provided us with a record that appears intended to obscure our
view of the trial court proceedings.

3

“The plaintiffs and cross-defendants are [Moore] and
[Hills]. Moore is a singer, songwriter and music producer. He
controls and operates music and radio corporations that include
Rene Moore Music Inc., Rufftown Entertainment Inc. and Radio
Multi-Media Inc. Hills is Moore’s close friend and business
associate, who has served as the corporate secretary for Mooie s
corporations since the late 1980s.
“The defendant and cross-complainant is [Bragg]. She is a
licensed real estate agent and a former police officer. [Bragg]
owns and occupies 6160 Shenandoah Avenue in Los Angeles,
which is the property adjacent to 6150 Shenandoah. She and
Moore lived together as domestic partners beginning in 2002 and
ending several years later (the exact date was unclear in the
evidence).
“[A.] PROCEDURE
“This action involves a number of consolidated and related
cases, and together they have a long and tortured procedural

history. [1fl . .. Hf]
“The legal proceedings started on April 13, 2011 when
[Bragg] filed [Los Angeles Super. Ct. No.] BC459449 . That case
was an unlawful detainer action against Moore regarding 6150
Shenandoah, the same property involved in this trial. The case
was assigned to Judge Richard Fruin.
“On June 20, 2011, Moore filed BC464111, an action for
quiet title and related claims against [Bragg] regarding 6150
Shenandoah. The case was assigned to Judge Michelle
Rosenblatt.
“During the course of the unlawful detainer proceedings in
BC459449, Moore repeatedly asked for his quiet title action in
BC464111 to be related and transferred to Judge Fruin for a

4

consolidated trial with [Bragg’s] unlawful detainer claim. Judge
Fruin denied his requests.
“The unlawful detainer claim in BC459449 was tried in late
2011. On January 23, 2012 Judge Fruin issued a statement of
decision in favor of [Bragg], and entered judgment for her
possession of 6150 Shenandoah. A writ of execution was issued,
and [Bragg] obtained possession of the property. Moore appealed
the judgment, but he has remained out of possession.
“On December 20, 2011 Moore and Hills filed BC475551,
another action for quiet title and related claims against [Bragg]
and various banking defendants regarding 6150 Shenandoah.
Although BC475551 was somewhat broader than BC464111, the
two cases raised very similar claims. BC475551 was ultimately
related to BC464111, assigned to Judge Rosenblatt, and
consolidated with BC464111.
“On March 2, 2012 Moore filed BC480013, an action
against [Bragg] for trespass and conversion of personal property
located within the 6150 Shenandoah property. Moore alleged
that [Bragg] retained his personal property after he vacated the
premises in response to the unlawful detainei judgment. The
case was ultimately related to BC464111 and assigned to Judge
Rosenblatt. [If] . • - [If]
“By mid-2012 there were two groups of consolidated cases
before Judge Rosenblatt: the quiet title and real property claims
between Moore, Hills and [Bragg] in BC464111 (c/w BC475551),
and the personal property claims between Moore and [Bragg] in
BC480013 (c/w BC483652). At that time, [Bragg’s] unlawful
detainer action in BC459449 was pending on appeal and inactive
in the trial court.

5

“On October 9, 2012 in BC464111 Judge Rosenblatt entered
an order declaring Moore to be a vexatious litigant under Code [of
Civil Procedure section] 391. Judge Rosenblatt stayed all
proceedings in BC464111 and ordered Moore to post a security
bond in the amount of $100,000. When Moore failed to post a
bond, Judge Rosenblatt dismissed BC464111 by order entered on
February 26, 2013. On July 3 and July 11, 2013 Judge
Rosenblatt entered orders requiring Moore to post a vexatious
litigant bond in BC475551 and BC480013. On October 23, 2013
Judge Rosenblatt entered an order rescinding the dismissal of
BC464111 but adhering to the requirement that Moore post a
bond in all of his cases.
“In July 2013 a jury trial was conducted before Judge
Rosenblatt on some of Moore’s personal property claims against
[Bragg] in BC480013 (c/w BC483652). The claims related to
trespass to chattels, conversion and similar claims concerning
personal property located within the 6150 Shenandoah property
that [Bragg] had retained after Moore vacated the premises
following the unlawful detainer judgment. On July 29, 2013 the
jury returned a verdict in favor of Moore. An interlocutory
judgment was entered on the verdict on Novembei 8, 2013,
awarding Moore damages against [Bragg] in the amount of
$3,150,000, reduced to $650,000 if [Bragg] returned specified
personal property to Moore.
“On August 1, 2013 [we] issued a decision that reversed
[Bragg’s] unlawful detainer judgment in BC459449. [(Moore I,
supra , 219 Cal.App.4th 367.) We] held that Judge Fruin erred by
failing to consolidate Moore’s claims for quiet title in BC464111
with [Bragg’s] unlawful detainer action in BC459449, and that
Moore was prejudiced because his quiet title issues weie too

6

"V.

complex for the summary procedures followed in the unlawful
detainer trial. [(Id. at p. 395.)] Judge Fruin recused himself
following [our] decision, and on November 20, 2013 [Bragg]
dismissed the BC459449 unlawful detainer action.
“Judge Rosenblatt granted summary judgment in favor of
the banking defendants oh August 13, 2013 and judgment on the
pleadings in favor of [Bragg] on November 8, 2013 for Moore and
Hills’[s] operative Second Amended Complaint in BC464111 (c/w
BC475551). These rulings left only the 5th cause of action for
quiet title and 4th cause of action for slander of title against
[Bragg], as well as [Bragg's] cross-complaint against Moore and

Hills.
February 21, 2014 Judge Rosenblatt recused herself
from all of the consolidated cases assigned to her: the quiet title
and real property claims in BC464111 (c/w BC475551), and the
personal property claims in BC480013 (c/w BC483652). All of the
cases were reassigned to Judge Frederick Shaller.
“Judge Shaller presided over all of the cases from March
24, 2014 through March 23, 2015. Among the more significant
rulings: on October 15, 2014 Judge Shaller denied Moore’s
motion for a preliminary injunction removing [Bragg] from the
6150 Shenandoah property, because the ownership and quiet title
issues were pending in BC464111 (c/w BC475551); and on
January 5, 2015 Judge Shaller ruled that the November 8, 2013
money judgment in BC480013 (c/w BC483652) could not be
enforced because it was an interlocutory determination.
“Moore challenged his status as a vexatious litigant before
Judge Daniel Buckley, [then-]Supervising Judge of the Civil
Division. On November 20, 2014 Judge Buckley denied Moore’s

7

motion to rescind Judge Rosenblatt s vexatious litigant and bond
posting orders.
“On January 8, 2015 Moore and Hills filed a statement of
disqualification against Judge Sballer in all of tbe cases. Judge
Shaller failed to respond to the statement, and on March 23, 2015
Judge Shaller ruled that he was disqualified as a matter of law
for failing to respond in a timely manner. All of the cases were
reassigned to Judge Michael Johnson on May 27, 2015.

[10 . • • [10
“[After the cases were reassigned to Judge Johnson, both]
parties filed motions that challenged prior rulings by other
[j]udges, and all the motions were denied. [Bragg] moved for a
preliminary injunction preventing Moore and Hills from filing an
unlawful detainer action for possession of 6150 Shenandoah; it
was denied on June 26, 2015. Moore and Hills moved to modify a
protective order issued by Judge Rosenblatt on July 25, 2012; it
was denied on August 24, 2015. Moore and Hills moved for an
order permitting them to enforce the November 8, 2013
interlocutory judgment in BC480013 (c/w BC483652) and to
inspect the 6150 Shenandoah property, which had been
previously denied by other [j]udges on September 18, 2013, June
26, 2014, September 23, 2014 and January 5, 2015; the motion
was denied again on September 2, 2015. On September 2, 2015
[the trial court] expressly ordered both parties not to file motions
to reconsider prior rulings without complying with Code [of Civil
Procedure section] 1008, and threatened sanctions for any
violation of the order.
“On July 15, 2015 [Bragg] moved to dismiss all claims by
Moore in the related and consolidated cases on the ground that
he had failed to file a bond in compliance with the vexatious

8

litigant orders. The [trial court] denied the motion, ruling that
Moore’s interlocutory judgment of $3,150,000 against [Bragg] in
BC480013 served the same purpose as a security bond and could
be used to satisfy any expenses incurred by [Bragg] in the
defense of Moore’s actions.
“On July 15, 2015 the [trial court] set a trial date for the
remaining quiet title and real property claims between Moore,
Hills and [Bragg] in BC464111 (c/w BC475551). The equitable
claims were bifurcated pursuant to Code [of Civil Procedure
sections] 598 and [1048, subdivision (b)], and the matters were
set for a bench trial on October 5, 2015.
“The trial commenced on October 5, 2015. Trial was on the
equitable claims in the operative pleadings, specifically: Moore
and Hills’[s] 5th cause of action for quiet title based on a
purchase money resulting trust, stated in the [Second] Amended
Complaint filed April 11, 2012 in BC475551 (c/w BC464111); and
[Bragg’s] 1st cause of action for declaratory relief, 2nd cause of
action for cancellation of instruments, 3rd cause of action foi
injunction, and 4th cause of action for quiet title, stated in the
[cross-complaint] filed February 21, 2013 in BC464111 (c/w
BC475551). These equitable claims were bifurcated for a bench
trial, with the remaining legal claim (Moore and Hills’[s] 4th
cause of action for slander of title) reserved for later
determination.
“On the first day of trial Moore and Hills moved to vacate
the order for a bench trial and to instead conduct a jury trial of
all claims. The motion was denied, and the matter proceeded as
a bench trial. Trial was conducted on October 5, 6, /, 8, 13 and
14, 2015, with a court reporter present each day.

9

“During the trial Moore and Hills filed statements of
disqualification against Judge Johnson. . . . The first statement
against Judge Johnson was filed on October 9, 2015; on the same
date it was stricken and the trial proceeded. On October 13, 2015
Moore and Hills orally objected to Judge Johnson’s participation
in the trial, announcing that Moore had filed a federal lawsuit
against Judges Rosenblatt, Fruin, Shaller, Bucldey, Johnson and
other [superior court judges]; the objection was overruled and the
trial proceeded. On October 14, 2015 Moore filed a second
statement of disqualification against Judge Johnson; on the same
date it was stricken and the trial proceeded.
"... Moore filed three pleadings seeking to disqualify
Judge Johnson on October 20, October 21 and November 3, 2015.
None of these pleadings were served in compliance with Code [of
Civil Procedure section 170.3, subdivision (c)(1)]; the [trial court]
learned of the unserved pleadings on November 6, 2015, and
issued an order striking them on the same date. On November
30, 2015 Moore filed and served two additional pleadings seeking
to disqualify Judge Johnson, and they were stricken by order
entered on December 1, 2015. On December 18, 2015 Moore and
Hills filed and served two additional pleadings seeking to
disqualify Judge Johnson, and they were stricken by order
entered on December 21, 2015. On January 4, 2016 Moore and
Hills filed and served another pleading seeking to disqualify
Judge Johnson, and it was stricken by order entered on January
12 2016 On February 10, 2016 Moore filed yet another pleading
seeking disqualification, and it was stricken on February 11,
2016.”

10

The trial court entered judgment for Bragg on March 29,
2016. Moore and Hills timely appealed.3
DISCUSSION
A. Vexatious Litigant Order & Disqualification of
Judge Johnson
Moore contends that the trial court abused its discretion
when it entered an order declaring him a vexatious litigant
because, he explains, two of the six actions upon which the trial
court relied for its determination of his vexatious litigant status
were summary denials of writ petitions. (See Code Civ. Proc., §
391, subd. (b)(1).)

ruling if it is supported by substantial evidence. [Citations.] On
appeal, we presume the order declaring a litigant vexatious is
correct and imply findings necessary to support the judgment.
(Bravo v. Ismaj (2002) 99 Cal.App.4th 211, 219.)
Moore argues that Fink u. Shemtov (2010) 180 Cal.App.4th
1160, 1172 (.Fink) “is clear” that a summary denial of a writ
petition does not qualify as litigation that has been finally
determined adversely,” and that the trial court therefore erred
3 On April 8, 2019, Hills filed a request for judicial notice.
On September 16, 2019, Moore filed another request for judicial
notice. Hills’s request for judicial notice is denied. The only
document for which Hills seeks judicial notice is incomplete and
not in a form that we could judicially notice. {Wolf v. CDS Devco
(2010) 185 Cal.App.4th 903, 915.) Moore’s request for judicial
notice is granted as to exhibit A and denied as to exhibits B, C, D,
E, and F. (Ibid.) As to exhibit A, we take judicial notice only as
to the existence of the document, and not as to the truth of any of
the allegations contained in it. (Ibid.)

11

i
when it relied on summary denials of two writ petitions to find
that Moore is a vexatious litigant. We disagree.
What Fink says is that a summary denial of a writ petition
“does not necessarily constitute a litigation that has been ‘finally
determined adversely to the person .... (Fink, supra, 180
Cal.App.4th at p. 1172, italics added.) Fink distinguished
between summary denials of writ petitions that can and cannot
support a vexatious litigant finding. Where appellate review may
be obtained only through a writ petition, a summary denial will
suffice to support a vexatious litigant finding; where appellate
review may be obtained through a later appeal, a summary
denial of a writ petition might not support a vexatious litigant
finding. (Id. at pp. 1172-1173.)
The distinction is academic here; Moore has not provided
us with information from which we may discern the nature of
either of the two writ proceedings relied upon by the trial court
(or any other information from which we might meaningfully
review the trial court’s order). “It is the burden of appellant to
provide an accurate record on appeal to demonstrate error.
Failure to do so precludes an adequate review and results in
affirmance of the trial court’s determination.” (Estrada v.
Ramirez (1999) 71 Cal.App.4th 618, 620, fn. 1.) Because Moore
has not provided us a record that demonstrates the trial court’s
error, we affirm the trial court’s order declaring Moore a
vexatious litigant.
Based on the record before us, we would affirm the trial
court’s order declaring Moore a vexatious litigant even if both of
the unsuccessful writ petitions the trial court cited were
insufficient to support the finding. Between October 9, 2015 and
February 10, 2016, Moore filed at least nine pleadings seeking to

12

disqualify Judge Johnson under Code of Civil Procedure section
170.3. Those pleadings alone support a vexatious litigant finding
under Code of Civil Procedure section 391, subdivision (b)(3),
which provides that “|i]n any litigation while acting in propiia
persona, [a person who] repeatedly files unmeritorious motions,
pleadings, or other papers, conducts unnecessary discovery, or
engages in other tactics that are frivolous or solely intended to
cause unnecessary delay7’ is a vexatious litigant.4
B. Jury Trial
One of the primary categories of error Moore and Hills
assert on appeal is that they were entitled to a jury trial below
rather than the bench trial the trial court conducted. The
appellants’ jury trial arguments are threefold. First, the
appellants contend that they were entitled to a jury trial because
their action was a quiet title action involving possession of the
6150 Shenandoah real property (citing Thomson v. Thomson
(1936) 7 Cal.2d 671 (Thomson)). Second, the appellants contend
4 One of Moore’s points of asserted error is that the trial
court erred when it failed to respond to one of Moore s many
disqualification pleadings. “The determination of the question of
the disqualification of a judge is not an appealable order and may
be reviewed only by a writ of mandate from the appropriate court
of appeal sought only by the parties to the proceeding.” (Code
Civ. Proc., § 170.3, subd. (d); Fink, supra, 180 Cal.App.4th at p.
1176.) The trial court’s orders striking Moore’s disqualification
pleadings may not be challenged on this appeal. (Fink at p.
1176.) Additionally, were we to reach the merits, Moore would
still not prevail. Moore asks us to disqualify Judge Johnson
based on his October 21 and November 3, 2015 pleadings. Those
documents do not even purport to have been served on Judge
Johnson as required by Code of Civil Procedure, section 170.3,
subdivision (c)(1).

13

A

»

that court orders by a variety of judges they sought to have
disqualified (and that did eventually recuse or otherwise
disqualify themselves from the matter) guaranteed them a jury
trial on all of their claims. Third, Moore and Hills argue that the
trial court’s denial of a jury trial contradicted our decision in
Moore I.
Thomson is inapposite by its own terms. “In a simple
action to quiet title when the possession of the property is not
involved, it is an equitable action.” (Thomson, supra, 7 Cal.2d at
p. 681.) The trial court tried the appellant’s quiet title action
based on the fifth cause of action in their second amended
complaint. As Bragg points out in her brief, the appellants did
not seek possession of the property by that cause of action. A
quiet title action is equitable in nature except when it takes on
the character of an ejectment proceeding to recover possession of
real property. [Citation.] In this case, neither party sought
possession of the property under an ejectment theory. The trial
court therefore adjudicated the matter as a chancellor in equity.”
(Aguayo v. Amaro (2013) 213 Cal.App.4th 1102, 1109-1110.)
Moreover, regardless of statements in prior judges orders
referring to a jury trial based on the appellants’ posting of jury
fees, Moore and Hill were not entitled to have equitable claims
heard by a jury. “As a general proposition, ‘[t]he jury trial is a
>»
matter of right in a civil action at law, but not in equity. (C&
K Engineering Contractors u. Amber Steel Co. (1978) 23 Cal.3d 1,
8.)
Finally, our opinion in Moore I reversed the trial court s
judgment in BC459449 and remanded that case to the trial court
for further proceedings. Moore and Hills argue that our
statement that the trial court’s error in that case “require[ed] the

14

i
judgment’s reversal and remand to the tiial court for
determination of the parties’ rights to legal and beneficial title to
the property, and their respective rights to possession based on
that determination” required a jury trial on remand. (See Moore
I, supra, 219 Cal.App.4th at p. 395.) It did not. The parties’
respective rights to legal and beneficial title to 6150 Shenandoah
have now been determined. And nothing in the record leads us to
conclude that there was any question left requiring a jury after
the trial court conducted its bench trial on the equitable issues it
bifurcated.
C. Discovery Rulings
The appellants also challenge the trial court s judgment
based on what they characterize as discovery rulings.
Moore argues, for example, that “Judge Johnson erred in
not allowing [him] discovery on critical issues.” That argument,
however, is based on a disagreement with a factual finding the
trial court made, and contains no citations to law or any aspect of
the record that explain the issue, much less demonstrate error.
Moore also argues that the trial court’s entry of a protective
order Bragg sought to prevent discovery of various financial
records was unfair and deprived him and Hills of due process.
The protective order alludes to the California Right to Financial
Privacy Act. (Gov. Code, § 7460 et seq.) We can only surmise ,
(the record does not contain supporting documents) that Bragg’s
motion for the protective order and the reporter’s transcript from
the hearing on the motion would explain why the trial couit
invoked the “financial privacy act.” Regardless, the appellants
arguments contain no information from which we could conclude
the trial court abused its discretion by denying Moore and Hills
access to Bragg’s sensitive financial information.

15

“To demonstrate error, appellant must present meaningful
legal analysis supported by citations to authority and citations to
facts in the record that support the claim of error.” (In re S.C.
(2006) 138 Cal.App.4th 396, 408.) We can discern no error from
the appellants’ arguments regarding evidentiary rulings.
Likewise, Moore contends that Judge Johnson was asked to
enforce Judge Rosenblatt’s order for Bragg to return Moore’s
personal property, including files he needed for litigation. But
again, the record contains no such request or denial.
D. Sufficiency of the Evidence
Citing inferences from evidence favorable only to their
conclusions, the appellants allege in conclusory fashion that the
evidence at trial was insufficient to support the trial court’s
judgment. On appeal for sufficiency of the evidence, however,
“we consider the evidence in the light most favorable to the
prevailing party, accept as true all the evidence and reasonable
inferences tending to establish the correctness of the jury s
finding, and resolve every conflict m favor of the judgment.
(Grassilli u. Barr (2006) 142 Cal.App.4th 1260, 1277.)
We “start with the presumption that the record contains
evidence sufficient to support the judgment; it is the appellant s
burden to demonstrate otherwise. [Citation.] The appellant’s
brief must set forth all of the material evidence bearing on the
issue, not merely the evidence favorable to the appellant, and it
also must show how the evidence does not sustain the challenged
finding. [Citations.] And the appellant must support all of its
factual assertions with citations to evidence in the appellate
record. [Citations.] If the appellant fails to set forth all of the
5 Moore’s argument purports to quote a transcript that the
appellants failed to include as part of the record.

16

material evidence, its claim of insufficiency of tlie evidence is
waived.” (.Baxter Healthcare Corp. v. Denton (2004) 120
Cal.App.4th 333, 368.)
Neither Moore nor Hills, nor their submissions taken
together, have provided an adequate basis to challenge the
sufficiency of the evidence here. (Southern California Gas Co. v.
Flannery (2016) 5 Cal.App.5th 476, 483; Vo v. Las Virgenes
Municipal Water Dist. (2000) 79 Cal.App.4th 440, 447-448.) Even
if we were able to determine what the asserted error is from the
record and briefs they have provided us, we would then be faced
with very specific findings by the trial court that the appellants
cannot overcome here. “The parties have raised a number of
claims,” the trial court said, “but cutting through all of the issues
is the question of credibility. The [trial court] has evaluated the
credibility of both sides, and specific credibility determinations
are explained in the [trial court’s] factual summary. In general,
the [trial court] has concluded that [Bragg] was credible and
truthful, while Moore and Hills were not. ffl] The testimony by
Moore and Hills was unconvincing, frequently misleading, and
often appeared to be deliberately untruthful. The [tiial court]
has no confidence in their testimony or version of the facts.
Moore and Hills represented themselves during trial, and their
lack of personal credibility has infected all of their evidence.
The appellants’ arguments regarding sufficiency of the
evidence rely largely on their assertions about evidence they
contend the trial court should not have believed. “[I]t is the
province of the trial court and not this court to pass on the
credibility of the witnesses and to determine the weight and
of the evidence. {Saunders v. Saundei s (1959) 1/3
Cal.App.2d 557, 558.)

17

E. JPMorgan Chase Bank Summary Judgment
In addition to the arguments Moore raised in his opening
brief, Hills also argued that the trial court erred by granting
summary judgment to JPMorgan Chase Bank. The record
contains no summary judgment briefing regarding JPMorgan
Chase Bank, no evidence regarding that motion for summary
judgment, no reporter’s transcript horn any hearing on a motion
for summary judgment, and no ruling on the motion for summary
judgment. Nor does the record contain the trial court’s register of
actions from which we would be able to discern if there were a
motion for summary judgment ruled on in this particular action.
While the trial court’s statement of decision after trial
alludes to “summary judgment in favor of the banking defendants
on August 13, 2013,” we have no information regarding that
order that would even allow us to determine if the order is
appealable or if a notice of appeal filed in 2016 was timely. And
we are aware of no appearance here or service of any of the
documents in this matter on any counsel for JPMorgan Chase
Bank, including the notice of appeal, which was served on counsel
for Bragg.
Hills’s argument regarding a JPMorgan Chase Bank
summary judgment suffers from the same flaws as the other
arguments appellants have made here; the appellants have not
provided us information sufficient for us to review their
challenge.

18

DISPOSITION
The trial court’s order declaring Moore a vexatious litigant
and the judgment are affirmed. Respondent is entitled to costs
on appeal.
NOT TO BE PUBLISHED

CHANEY, J.
We concur:

ROTHSCHILD, P. J.
%

4-i
WEINGART, J.*

* Judge of the Los Angeles Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

19

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 1

IVAN RENE MOORE et al.,
Plaintiffs and Appellants,
v.
KIMBERLY MARTIN BRAGG,
Defendant and Respondent.

COURT OF APPEAL - SECOND DIST.

FILED
Nov 12,2019
DANIEL P. POTTER, Clerk

JLozano

B272445
Los Angeles County Super. Ct. No. BC464111

THE COURT:
Petition for rehearing is denied.

Chaney, J.

Rothschild, P. J.

Weingart, J/*

* Judge of the Los Angeles Superior Court, assigned by the Chief Justice
pursuant to article VI, section 6 of the California Constitution.

Deputy Clerk

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/mainCaseScreen...

Appellate Courts Case Information

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

Change court |

Supreme Court
Court data last updated: 03/11/2021 11:08 AM

Case Summary
Supreme Court
Case:
Court of Appeal
Case(s):
Case Caption:
Case Category:
Start Date:
Case Status:
Issues:
Disposition Date:
Case Citation:

S259479
Second Appellate District, Div. 1
B272445
MOORE v. MARTIN-BRAGG
Review - Civil Appeal
12/10/2019
case closed
none
01/15/2020
none

Cross Referenced Cases:
No Cross Referenced Cases Found
Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy
,

1 of 1

© 2021 Judicial Council of
California

3/11/2021,3:02 PM

